<html>
<title> - NEXT STEPS FOR U.S. FOREIGN POLICY ON SYRIA AND IRAQ</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                 NEXT STEPS FOR U.S. FOREIGN POLICY ON 
                             SYRIA AND IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 19, 2014

                               __________

                           Serial No. 113-223

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                          U.S. GOVERNMENT PRINTING OFFICE 

91-457 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert Stephen Ford, senior fellow, Middle East 
  Institute (former U.S. Ambassador to Syria)....................     4
The Honorable Elliott Abrams, senior fellow for Middle Eastern 
  studies, Council on Foreign Relations..........................    15
Kimberly Kagan, Ph.D., founder and president, Institute for the 
  Study of War...................................................    23
Steven Heydemann, Ph.D., vice president of applied research on 
  conflict, United States Institute of Peace.....................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Stephen Ford: Prepared statement............     7
The Honorable Elliott Abrams: Prepared statement.................    17
Kimberly Kagan, Ph.D.: Prepared statement........................    25
Steven Heydemann, Ph.D.: Prepared statement......................    31

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    54

 
          NEXT STEPS FOR U.S. FOREIGN POLICY ON SYRIA AND IRAQ

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3:25 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
Thank you so much. And I am so sorry that we had a slew of 
votes, but I always say, as a Cuban refugee, that we love 
getting interrupted by democracy in action. So thank you very 
much for sticking around.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each, because they are all coming back from the votes, 
for our opening statements, I will then recognize other members 
seeking recognition for 1 minute. We will then hear from our 
witnesses. And without objection, the witnesses' prepared 
statements will be made a part of the record, and members may 
have 5 days to insert statements and questions for the record 
subject to the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    One of the first hearings this subcommittee held during 
this Congress focused on the situation in Syria 2 years into 
its violent conflict. This will be our 10th hearing dedicated 
to examining the Syrian conflict, the precarious situation in 
Iraq, and the rise of ISIL. I wish I could say that we are here 
today to see how things have gotten better, but as we know, we 
can't say that.
    The common theme we have seen in our previous nine hearings 
is that the administration has failed to put together a 
coherent, a consistent, and decisive policies and strategies to 
address these threats. We have gone from remaining silent when 
the Syrian opposition first spoke out against Assad in March 
2011, before all the foreign fighters and the terrorist groups 
coopted the anti-Assad campaign, to finally calling on Assad to 
step down 5 months after his brutal crackdown began, and back 
to remaining silent again, and allowing Assad to remain in 
power.
    We remain on the sidelines dithering and indecisive until 
President Obama laid down his now infamous red line on Syrian 
chemical weapons. As we know, Assad unleashed chemical weapons 
on his people, and that red line was crossed without any 
repercussions for Assad, damaging our credibility in the 
region.
    We now know Assad did not fully disclose all of his 
chemical weapons, materials, and stockpiles, and therefore, 
that threat still remains. Now, after over 3 years of fighting 
in Syria, President Obama has decided to arm and train Syrian 
rebels, but not in the fight against Assad, and these rebels 
are supposed to fight against ISIL, but only in a defensive 
posture. I believe this strategy is a mistake.
    In the immediate aftermath of the fall of Mosul earlier 
this year, Secretary Kerry said that Mosul's fall took everyone 
by surprise. Yet 7 months before the fall, then Deputy 
Assistant Secretary Brett McGurk said, ``ISIL has benefitted 
from a permissive operating environment due to inherent 
weaknesses of Iraqi security forces, poor operational tactics, 
and popular grievances. It has also benefitted from a sanctuary 
across the porous border in Syria, control of lucrative 
facilities there, such as oil wells, and regular movement of 
weapons and fighters between Syria and Iraq.''
    He would go on to say that we knew the Iraqis lacked the 
equipment for the relentless and effective operations against 
ISIL in Iraq. So how is it the President, the Secretary of 
State, and others in the administration can say that after 
Mosul fell that it was a surprise? The President then 
authorized air strikes in Iraq and eventually in Syria to 
target ISIL. This may be a case of too little too late, because 
it is becoming evident that we need a stronger and broader 
approach.
    Our allies in the gulf and the coalition are ready and 
eager to support us in the battle against ISIL, but they need 
to see a U.S. that is committed to the fight. They just aren't 
seeing that now and expect a more comprehensive approach, which 
includes removing Assad from power, and that means addressing 
the Iranian issue.
    The Maliki government failed because it allowed Iran to 
exert undue influence over Iraq, which marginalized and angered 
the Sunni people in that country. Iran's support for Assad has 
kept that thug in power and has caused the Syrian conflict to 
continue and escalate, soon entering its fourth year. Our 
strategy to fight ISIL will not be effective if we don't have a 
comprehensive strategy that looks at Iraq, Syria, and ISIL 
linked together.
    In Iraq, thanks to the brave fighting from the Kurds and a 
new Iraqi Government, we have been able to stall the progress 
of ISIL fighters. Iraqi forces have been able to drive out ISIL 
fighters from oil refineries seeking to take aim at ISIL's 
lifeline, its financial support.
    This terror group is well financed, and we need to target 
its source of income as part of our comprehensive approach if 
we are to succeed. However, more needs to be done. The new 
Iraqi Government must learn from the mistakes of Maliki and 
maintain stronger relations with the Kurds. One example can be 
helping in immediately rearming the Kurds. The Kurds have been 
fighting on the front lines against ISIL, and they are in real 
need of more weapons, ammunition, and supplies.
    But most importantly, the President needs a strategy that 
tackles the issues of Iraq, Syria, and ISIL together, because, 
if not, the crisis will spill over across the Middle East and 
pose an even greater threat to U.S. national security interest.
    And I am now pleased to yield to--Mr. Kennedy is walking 
over--be pleased to yield to members for their opening 
statements while we wait for Mr. Deutch. He is coming. So we 
will start with Mr. Kennedy.
    Mr. Kennedy. It is a first-time experience for a freshman, 
thank you very much, to be first. Madam Chair, I just want to 
thank you for hosting a very important hearing.
    To the witnesses, thank you for your service. Thank you for 
being here yet again to brief this committee. I very much look 
forward to hearing what you have to say as we dive into some of 
the details and an update from all of you. So thank you very 
much. I look forward to your testimony.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Kennedy.
    And someone who has been in the fight over there, Mr. 
Cotton is recognized.
    Mr. Cotton. Well, with a late start to the hearing and 6 
years of excessive and long-winded oratory before me in the 
Senate, I will cede back my time to the chair so we can hear 
from the witnesses.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. I would defer to the chair, too, to hear the 
witnesses.
    Ms. Ros-Lehtinen. Thank you.
    Another veteran in our subcommittee we are so proud of, Mr. 
DeSantis.
    Mr. DeSantis. Thank you, Madam Chairman.
    You know, I was really rattled when a couple of weeks ago 
The Wall Street Journal reported that the President wrote a 
secret letter to Ayatollah Ali Khamenei from Iran seeking to 
enlist Iran's support in the fight against ISIS. The idea that 
the way to defeat a terrorist group is to align ourselves with 
the world's leading state sponsor of terrorism is flatly 
unacceptable, and I fear that that will be used as 
consideration to provide even more concessions to Iran for 
their nuclear program. And the result of this policy could be 
catastrophic where Iran acquires the bomb and they increase 
their sphere of influence throughout the Middle East where you 
have a Shi'a crescent from the Afghanistan border to the 
Mediterranean Sea.
    And so I am glad we are talking about ISIS, it is an 
important subject. And I just want to make my position clear: 
Iran has no constructive role in the fight against ISIS. They 
sponsor terrorism. They view us as the great Satan. They want 
to destroy Israel. And the President is way off base if he 
thinks otherwise. And I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chair, and thank you to the 
witnesses. In the interest of time, I will yield back my time 
so we can get to the testimony and hear their ideas for the way 
forward.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Yoho of Florida.
    Mr. Yoho. Thank you, Chairman Ros-Lehtinen, for holding 
this hearing, the 10th of its kind, and secondly, thank you to 
the witnesses that are coming before us today.
    Since 2011, the administration has been unable to 
adequately address the deteriorating situations in Iraq and 
Syria that have given rise to ISIL. Since ISIL's rise, many 
innocent lives have been lost to the brutality, the 
crucifixions, the decapitation. They are thugs, plain and 
simple, thugs who have taken advantage of a power vacuum 
created by an unclear U.S. foreign policy that resembles a 
broken compass, and it has created uncertainty in the resolve 
of the United States and the direction for our allies to 
follow. I look forward to your testimonies, thank you.
    Ms. Ros-Lehtinen. Thank you very much, Dr. Yoho.
    And now I am pleased to recognize our witnesses. Thank you 
for your patience. First we are pleased to welcome the 
Honorable Robert Ford, who is a 30-year veteran of the State 
Department. Ambassador Ford has served our country in Bahrain, 
in Iraq, in Algeria, and most recently in Syria. What have you 
been doing wrong?
    He has also served as the U.S. Ambassador to both Algeria 
and Syria. He is currently a resident scholar at the Middle 
East Institute and teaches at Johns Hopkins University.
    We welcome you, Ambassador Ford.
    We are also pleased to welcome back a good friend of our 
subcommittee, the Honorable Elliott Abrams, who is a senior 
fellow for Middle Eastern at the Council of Foreign Relations. 
Previously he has served as deputy assistant to the President 
and deputy national security advisor in the administration of 
President George W. Bush, where he supervised U.S. foreign 
policy in the Middle East for the White House.
    Welcome, Mr. Abrams.
    And also returning is our good friend, Dr. Kimberly Kagan. 
She is the president and founder of the Institute for the Study 
of War. Previously she taught at the U.S. Military Academy in 
West Point and has served in Kabul from 2010 to 2012, working 
for General David Petraeus and General John Allen.
    Thank you.
    And last but not least, a very good gentleman. We welcome 
Dr. Steven Heydemann, who serves as the vice president for 
applied research on conflict and is also a senior advisor on 
the Middle East at the United States Institute for Peace.
    We have got quite a great lineup. Thank you very much. Your 
written statements will be made a part of the record.
    And, Ambassador Ford, we will begin with you.

STATEMENT OF THE HONORABLE ROBERT STEPHEN FORD, SENIOR FELLOW, 
    MIDDLE EAST INSTITUTE (FORMER U.S. AMBASSADOR TO SYRIA)

    Mr. Ford. Thank you very much, Madam Chairman and honorable 
members of the committee. It is really an honor to be with you 
this afternoon.
    I worked in Iraq on the ground for 4\1/2\ years between 
2003 and 2010, and I worked on Syria for 3 years after that, 
including just a little over 1 year on the ground in Syria. And 
especially with respect to Syria, the situation has become 
really atrocious. Several of you talked about the threat that 
jihadi elements in Syria and Iraq pose, so I won't go over 
that, but I think it is important to understand that what this 
really is, is it is one big conflict stretching from Syria 
across the border and over to Iraq. It is one conflict. There 
is a western front and there is an eastern front.
    The eastern front in Iraq where Iraqi Government policies 
alienated not only Sunni Arabs, but also Kurds, created such 
tensions inside Iraq, this is during the time of former Prime 
Minister Maliki, such tensions inside Iraq that resistance 
against the Islamic State was disjointed and quite ineffective.
    The good news over the last several months is that on the 
eastern front in Iraq the advance of the Islamic State has been 
blunted. Our strikes and the material assistance that we have 
provided have certainly contributed. And another little bit of 
good news from the Iraq side is that there is some progress, 
don't want to overstate it, but there has been some progress 
resolving political differences between the central government 
in Baghdad and the Kurdish Regional Government.
    That said, again on the eastern front in Iraq, the central 
government's dependence on armed Shi'a militias is really very 
alarming. They are using Shi'a militias primarily as their 
weapon against the Islamic State. Human Rights Watch and 
Amnesty International last month published very detailed 
reports, I recommend them to you, about the abuses which these 
Shi'a militias are committing against Sunni Arab communities 
where they operate in Iraq. And to be very clear, those abuses 
are going to prevent us from winning the hearts and minds of 
Iraq's Sunni Arabs. And without Iraq's Sunni Arabs, no 
sustainable containment, much less the destruction of the 
Islamic State in Iraq is going to be possible.
    Reining in those militias is going to be hard given the 
Iranian role in helping them. Thus, going forward, the 
administration is going to have to be quite tough about what to 
do with respect to the Shi'a militias and the Iranian 
influence. I have no doubt that our commitment to a genuinely 
inclusive political arrangement in Iraq is going to be really 
tested.
    I am going to say a few things about Syria. The situation, 
as I said, is absolutely terrible. The air strike campaign 
which we started in September has actually hurt the moderate 
opposition. It has discredited them on the street because we 
struck targets belonging to the al-Qaeda-affiliated al-Nusra 
Front, which had being fighting the Assad regime. I am not 
arguing that these elements should not have been hit, but at a 
minimum we should have been explaining to Syrians, both 
civilians and moderate fighters, what our strategy was and why 
we were hitting the al-Nusra Front.
    In addition, we have directly helped the outside regime by 
hitting Islamic State targets in eastern Syria that were 
fighting not Iraqis, these Islamic State units were not 
fighting the moderate opposition, they were fighting the Assad 
regime, and our air strikes enabled the Assad regime to break 
the siege of units surrounded in one of the provincial capitals 
in eastern Syria. In fact, what we did is we played the role of 
the Assad air force there. Interestingly, we have provided no 
close air support to moderate elements near Aleppo that are 
desperately fighting the Islamic State and also confronting the 
Assad regime.
    So going forward, if it continues like this, there isn't 
going to be a moderate opposition in northern Syria, and I 
wonder then who is it exactly that is going to face the Islamic 
State. The U.N.'s capable envoy Steffan DeMistura is proposing 
a freeze, sort of a cease-fire, and it is a laudable idea, 
could allow humanitarian aid to get through. But there have 
been dozens of efforts to get a cease-fire, and they have 
almost all failed because there hasn't been an enforcement 
mechanism.
    Nor will a freeze, a cease-fire, in Aleppo or Damascus 
address the jihadi problem. And so going forward, I think the 
administration is going to have to decide if it wants boots on 
the ground to confront jihadis or not, and if it does want 
boots on the ground, whose boots are they going to be? There 
aren't any easy choices, but the perfect answer cannot be the 
enemy of the good at this point.
    Secondly, the administration is going to have to decide if 
it wants a political process or not, and if it does want a 
political process it is going to have to figure out how to get 
to one. The current path is not going to get to a political 
process and instead it is going to get to an environment where 
it is going to be even harder to fight jihadis.
    So with that rather grim assessment, thank you very much, 
and I look forward to your questions.
    [The prepared statement of Mr. Ford follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. I have a bill on the floor, which is 
wonderful news, but Mr. DeSantis is a very able substitute for 
me. Thank you.
    Mr. DeSantis [presiding]. While we are changing chairman, 
Mr. Deutch, ranking member of the subcommittee, has arrived.
    So did you want to make your opening statement?
    I recognize the gentleman from Florida.
    Mr. Deutch. Thank you, Mr. Chairman, and my apologies to 
the witnesses.
    Thanks to our esteemed panel for appearing here today. I 
would like to recognize Ambassador Ford for your years of 
service and acknowledge all of the foreign service officers, 
military personal, and humanitarian workers who have committed 
themselves to addressing the crisis in Syria and in Iraq.
    Mr. Chairman, I believe this is now the 10th hearing 
related to either Iraq or Syria that this subcommitteehas held 
this Congress. President Obama first said that Bashar al-Assad 
must go in August 2011. We were told that it would be just a 
matter of months. Yet the Assad regime held one, aided in large 
part by an Iranian assistance, and the regime continued its 
murderous rampage for another 3 years.
    Over 200,000 people have died in this conflict, and while 
the international community may have succeeded in ridding Assad 
of his chemical weapons arsenal, he continues to use other 
brutal tactics, like barrel bombs, and has literally resorted 
to starving people to death by cutting off access to aid.
    As we struggled to determine who in the Syrian opposition 
we could work with, some in the gulf were busy funding 
extremist elements that had gained popular support simply 
because they were the best organized and on and off the 
battlefield. As horrified as we were at the tactics of groups 
like Jabhat al-Nusra, a group denounced for its violence by al-
Qaeda, something worse was growing. The rise of ISIS has thrown 
Syria and Iraq into chaos, igniting thousands of years of 
sectarian conflicts, straining the fatigued Syrian opposition's 
resources as they now battle both Assad and ISIS, and 
destabilizing Iraq to levels of violence not seen since before 
2006.
    ISIS grabbed ahold of large swaths of territory in Syria, 
marched into Iraq, rendering the border between these two 
countries obsolete, declaring an Islamic caliphate. When ISIS 
forces overran Mosul and began targeting religious minorities, 
the United States made the decision to intervene. I applaud the 
administration for working to then secure a broad coalition 
that includes over 60 international partners acting in various 
capacities to combat this threat, but after months of air 
strikes, it is time to look at what we have accomplished and 
how we intend to proceed in our effort to, as the President 
said, degrade and destroy ISIS.
    Air strikes halted ISIS' march toward Erbil, which would 
have put significant American interests and personnel at risk. 
Air strikes helped to rescue the Yazidi population from Mt. 
Sinjar and secure the Mosul dam. Air strikes have prevented the 
takeover of Kobani on the Turkish border. But air strikes won't 
end the conflict; neither will American boots on the ground. 
The people of Iraq and Syria, with training and equipment from 
the U.S. and our partners, are the only ones who can end this 
conflict.
    To that end, we must continue to support the Peshmerga and 
the Syrian Kurds, the Iraqi security forces, and the moderate 
Syrian opposition, while simultaneously encouraging political 
processes in both Iraq and Syria. In Iraq, this government must 
work to unite with the Sunni communities against ISIS. This 
government cannot repeat the mistakes of the past. An inclusive 
dialogue that brings Sunni, Shiite, and Kurds to the table is 
the best and, frankly, only way to stabilize Iraq against ISIS 
forces.
    Regional partners must play a leading role in encouraging 
Iraq's new leaders to work in concert with Sunni tribes in 
Anbar. Regional partners must also work with the U.S. to 
support the Iraqi and Syrian Kurds, and I am pleased that there 
has been progress made in allowing access to weapons and aid, 
as well as a significant step by the Turkish Government to 
allow the Peshmerga to pass through its territory. Turkey, a 
NATO ally, must play a vital role in international efforts to 
combat this threat, and I hope that Vice President Biden's 
visit to Turkey will increase this cooperation.
    I understand these are complicated relationship. The 
Washington Post recently addressed these complexities 
explaining that the Peoples' Democratic Party, or PYD, to which 
the Kurds fighting in Kobani belong, is affiliated with the 
Kurdistan Workers' Party, or PKK, which Turkey and the U.S. 
Have designated a terrorist organization. The PKK in turn has 
ties to the Assad regime, the Iraqi Kurds have close relations 
with Turkey and the U.S. and are affiliated with a different 
Syrian Kurdish faction, the Kurdish National Council, which 
backs the Syrian opposition and is at odds with the PYD over 
who should control the Kurdish regions of Syria.
    This only further emphasizes why the international 
community must work to unite opposition factions in both the 
fight against ISIS and the fight against Assad. I welcomed the 
announcement last week that the administration will reassess 
its strategy in Syria and Iraq, because this unfortunate 
reality is that as long as the Syrian conflict rages on, ISIS 
will continue its deadly assault in both Syria and in Iraq. It 
will continue its recruiting of foreign fighters. It will 
continue to build up proxy groups in the region. And with so 
much international focus on ISIS, Assad has continued his 
assault on the Syrian people with near impunity. It is no 
wonder that the Assad regime is continuing to purchase ISIS' 
oil, generating millions per day in funding for its terrorist 
activities. As long as ISIS continues its atrocities, Assad 
will attempt to convince the world that he is now the lesser of 
two evils.
    Mr. Chairman, there are no easy answers here, and I commend 
the administration for the progress it has made. I urge our 
partners in the region to assist us in accelerating the 
training and equipping of Syrian opposition. I commend the 
allies in the region who have stepped up to this fight. But we, 
in conjunction with our partners, must have a long-term 
strategy, and I look to our witnesses today to provide us with 
some guidance. I thank you, and I yield back.
    Mr. DeSantis. The gentleman yields back. And we will 
continue with the witness statements. I will go to Elliott 
Abrams.
    You are recognized for 5 minutes.

 STATEMENT OF THE HONORABLE ELLIOTT ABRAMS, SENIOR FELLOW FOR 
      MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Thank you, Mr. Chairman.
    I appreciate the opportunity to be here today. I remember 
testifying here and in the Armed Services Committee a couple of 
years ago and saying there are 100,000 people killed and a 
couple of million refugees. Of course now about 200,000 dead, 
perhaps 7 million refugees, which are completely changing the 
politics, the economies, the demography of Jordan, Lebanon and 
Kurdistan.
    So you have asked in the name of this hearing what next, 
what steps. We all share the goal of defeating ISIS, the 
Islamic State, or destroying it, as the President once said. 
But I don't think we have a strategy in place today that can 
achieve that goal, primarily because we do not really have a 
sensible Syria strategy.
    And our strategy in Iraq is comprehensible but unlikely to 
succeed, in part because, as the Ambassador said, there is one 
military theater here, there is an eastern front and a western 
front, but Syria and Iraq now are one theater because ISIS 
obliterated the border. So if we don't have a Syria policy, we 
don't really have an Iraq policy.
    To start with Iraq, the question really is, who is going to 
fight ISIS? And our answer seems to be a combination of the 
Iraqi Army, the Sunni tribes, and the Kurdish Peshmerga. They 
will fight, and they will defeat ISIS with our help. That 
strategy is not working yet, and one reason is that we have 
been so slow to commit the forces we are likely to need, a few 
hundred people, then 1,500 people, now another 1,500 people.
    Now, if we need exactly 3,000 advisors, I am glad we have 
the right number, but I wonder if it is the right number, and 
if not, if it is not, let's commit the number we need now 
rather than in a drawn-out series of announcements that assure 
we will always have too few forces in theater.
    Moreover, though we have watched the Peshmerga having great 
difficulty dealing with ISIS, We continue to deny those forces 
military aid they seek and they need. That is not going to 
work. If our goal is to limit Iranian influence and defeat 
ISIS, strengthening the Peshmerga is the logical step, and we 
should take it.
    Last week a key Kurdish official, Mansour Barzani from the 
National Security Council, said this in an interview: ``We have 
told the international forces there is a continuous need to 
support the Peshmerga with sophisticated arms in order to repel 
the ISIS enemies and defeat them as quickly as possible. The 
arms the Peshmerga have today are the old arms that came from 
the former Iraqi Army. As for the military assistance that 
reached the Kurdish region,'' I am still quoting Barzani, 
``this comprises medium weaponry and ammunition. The only heavy 
weaponry that we have yet received is some antitank missiles 
supplied by Germany.''
    That is not going to work. ``The Western states that have 
pledged military assistance to the Peshmerga have yet to meet 
their promises,'' he also said. It is not going to work.
    As to the Sunnis, we seem to be waiting for Baghdad to arm 
them. A couple of weeks ago General Dempsey said the 
precondition for arming them is that the Government of Iraq has 
to be willing to arm the Sunni tribes. We are going to be 
waiting a long time, I think, before we see the Government of 
Iraq do that, and we are running out of time
    In Syria, I agree with the Ambassador. We don't seem to 
have any answer at all to the question who is going to fight 
ISIS unless the answer is the Assad regime and Iran and 
Hezbollah. We have been very, very slow to help turn the rebels 
into an effective fighting force. It is very sad, it is tragic 
that the advice to help them from Secretary Clinton and CIA 
Director, later Secretary of Defense Panetta, and Secretary 
Kerry was rejected by the President.
    So now we seem to be falling into a kind of alliance with 
Iran and the Assad regime. And for all the reasons the 
Ambassador said, it is not going to work. It was really the 
Assad regime's brutality that created ISIS. A Syria policy that 
relies on Iran and Hezbollah and the Assad regime cannot 
succeed.
    I would just quote Ambassador Fred Hof, who was, with 
Ambassador Ford, one of the key Obama administration officials 
handling Syria policy until he resigned. He noted that the 
White House press statement introducing their November 7 fact 
sheet on Iraq strategy doesn't mention Syria, and as Hof says, 
``the Assad regime cannot, short of its voluntary departure, be 
part of a legitimate governance answer in Syria.''
    The next steps, I think, arm the Peshmerga, arm the Sunni 
tribes in Iraq, arm the Syrian rebel groups. To defeat ISIS, we 
must change the situation in Syria. The Assad regime is a 
jihadi manufacturing machine. We face a situation today, as the 
Ambassador said, where we occupy the Syrian air space, but 
Assad's air force can, with impunity, carry out any crime 
against humanity, any air strike against civilians, and we do 
nothing about it.
    If we continue to target and weaken ISIS without stepping 
up our help to the rebels, we are clearing the field for the 
Assad regime. There is no magic formula we can have here. As 
Fred Hof put it, ``A Goldilocks approach of trying to recruit 
and build a force just good enough to beat ISIL but not quite 
good enough to beat the regime simply won't work.''
    Thanks again for inviting me to testify. This is a 
complicated situation, as all of you have said. Every path 
ahead is fraught with difficulty. But this is the 10th hearing, 
and I just want to thank you for the committee's diligence in 
looking at Iraq and Syria over the past 3 years. Thank you.
    Mr. DeSantis. Thank you.
    [The prepared statement of Mr. Abrams follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. DeSantis. We will now go to Dr. Kagan for 5 minutes.

  STATEMENT OF KIMBERLY KAGAN, PH.D., FOUNDER AND PRESIDENT, 
                 INSTITUTE FOR THE STUDY OF WAR

    Ms. Kagan. Thank you very, very much to you and to all of 
the members.
    We face a real threat emanating from the Middle East, and 
it is not contained simply to the Middle East. We are looking 
at an incredibly dangerous enemy in the Islamic State and its 
rival living in Syria, the al-Qaeda affiliate Jabhat al-Nusra, 
the al-Nusra Front. And we are looking at two terrorist groups 
right now that are competing with one another for stature and 
global posture in order to claim the legitimacy and the 
leadership of the global jihadist movement. There is a huge 
amount at stake in Iraq and Syria, and it is not contained 
within their borders.
    I have rendered to you in my written testimony my 
assessment agreeing very much with the members of the 
committee, with Ambassador Ford, with Ambassador Abrams it's 
fact the American strategy in Iraq and Syria is flawed. 
Fatally, that its focus simply on degrading and destroying ISIS 
at the expense of looking at the regional and global conflicts 
that compromise the security of the United States and in which 
the United States has incredible interests is damaging the way 
we can approach future years and future generations as an 
American power.
    In point of fact, our strategy being pursued in isolation 
against the Islamic State, ignoring Assad, ignoring the rather 
extraordinary and complex dynamics within the global jihadist 
movement itself is really creating conditions for a fight that 
will last not just the coming years, but the coming 
generations. So we have a problem, and we need to solve it, and 
those solutions will not be simple, they will not be facile, 
and they will not be easy.
    We must recognize that our current strategy is not only 
driving the moderate opposition into a degree of 
marginalization such that it will no longer exist and flourish 
when we think that we really must rely on it to succeed in 
Syria. We are also actually creating conditions in which the 
competition between Jabhat al-Nusra and the Islamic State are 
going to characterize the future fight for Syria.
    We also, I think, are really underestimating the way in 
which the temporary solutions that the Iraqi Government and 
security forces are undertaking against ISIS right now inside 
of Iraq will actually drive the conflict over the long term. As 
Ambassador Ford noted, the Iraqi security forces are 
essentially not the same Iraqi security forces that we left 
behind in 2011. They are now plussed up with command and 
control elements, as well as fighting forces that come from 
Iranian-backed proxy groups that had, in fact, been fighting 
inside of Syria. And so what we are actually watching on the 
ground in the temporary halting of ISIS through deprivation, 
through denial of terrain in Bayji, and through denial of 
terrain in Jurf al-Sakhar, a very important stronghold south of 
Baghdad, is actually really creating the conditions in which an 
Iranian-backed Iraqi Government, based mostly around the 
security forces that are run by Iran, can actually establish a 
frontline that runs through the Shi'a areas of Iraq and pushes 
the Islamic State into a wedge between Iraq and Syria. These 
conditions, frankly, are allowing the Islamic State to 
consolidate its gains inside of Iraq because of the sheer fear 
of the Sunni population at facing something that is not a 
legitimate security force but really an arm of the Iranian 
Government.
    We need to refocus our policy. If we want there to be 
moderate opposition to Assad and if we want the Sunni tribes 
actually to rise up against al-Qaeda, we need to provide them 
with asymmetric capabilities on the battlefield so that they 
can achieve those objectives. Namely, they need close air 
support, they need command and control from us, and they need 
the ability to change the game so that they can survive the 
dual and triple threats that they are facing.
    Thank you very much.
    Mr. DeSantis. Thank you.
    [The prepared statement of Ms. Kagan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. DeSantis. We will now go to Dr. Heydemann for 5 
minutes.

STATEMENT OF STEVEN HEYDEMANN, PH.D., VICE PRESIDENT OF APPLIED 
     RESEARCH ON CONFLICT, UNITED STATES INSTITUTE OF PEACE

    Mr. Heydemann. Thank you, Mr. DeSantis, and my thanks as 
well to Chairman Ros-Lehtinen and Ranking Member Deutch, and 
other members of the subcommittee for convening this hearing. I 
have to begin my comments by noting that the views I express 
today are solely my own and do not represent the U.S. Institute 
of Peace, which does not take positions on policy issues.
    As the chairman noted in her opening remarks and as a 
number of my colleagues here today have also stressed, more 
than 3 years since Syria collapsed into civil war the U.S. 
still lacks a coherent, integrated strategy either to achieve a 
political solution to the Syrian conflict or to degrade and 
destroy ISIS. A reassessment of Syria policy by the White House 
is called for and would be a welcome acknowledgment of the need 
for such a strategy.
    Given conditions on the ground, the relevant questions that 
a review must address concern not only what can be done to 
degrade and destroy ISIS, but how U.S. policy can help 
consolidate effective governance by moderate opposition actors, 
retrieve the possibility of a negotiated settlement of the 
Syrian conflict, and help Syrians preserve a path between 
extremism and dictatorship.
    An effective response to these questions will require 
moving beyond the policy of containment that has defined U.S. 
policy for the past 3 years. It will also require moving beyond 
a policy of local cease-fires. Instead, the starting points for 
an integrated strategy need to include a clear understanding 
that efforts to degrade and destroy ISIS either in Syria or in 
Iraq will not be successful unless they are accompanied by 
broader U.S. engagement anchored in a framework for moving 
Syria toward a political transition based on the Geneva 
Protocol of June 2012.
    The proposed train-and-equip program is an important piece 
of such a strategy. This should not only be placed on a fast 
track, as Secretary Hagel has promised will be the case, it 
also should be given a mission that extends beyond containing 
or rolling back ISIS to include operations targeting the Assad 
regime forces.
    To succeed, however, the train-and-equip mission will also 
require more extensive support from the U.S. and its regional 
partners through the establishment of a no-fly zone over 
northern Syria and a buffer zone inside Syria's border with 
Turkey. These should be supported by the active participation 
of broad regional and international coalition.
    To ensure that appropriate command and control is in place 
as fighters become operational, it will be necessary to link 
U.S.-trained forces to effective elements within existing 
Syrian opposition institutions. Without such a framework, the 
U.S. train-and-equip mission will be precarious, the 
effectiveness of U.S.-trained forces against ISIS diminished, 
and the possibilities for a political solution to the Syrian 
conflict remote. With them, U.S.-trained opposition forces will 
be able to operate from Syrian territory with oversight 
provided by Syrian military and political leadership. In 
addition, effective elements among the opposition's leadership 
will be able to move inside the country where they will be 
better positioned to support local councils and strengthen 
governance across opposition-held areas of the country.
    Perhaps most important, however, the combination of a 
protected buffer zone and a better trained and better equipped 
armed opposition has the potential to affect the strategic 
calculus of the Assad regime, revive negotiations, and advance 
efforts to achieve a political transition that includes 
acceptable elements from the regime and the opposition and 
preserves what remains of the institutions of the Syrian state.
    The Assad regime has been relentless in its pursuit of a 
military victory, secure in the support it receives from 
Russia, Iran, and Hezbollah. The regime is persuaded that 
international assistance from the opposition for the opposition 
will remain too limited to affect conditions on the ground. The 
integrated strategy outlined in my written testimony offers 
opportunities to more effectively challenge the Assad regime, 
degrade ISIS, strengthen alternatives to extremism and 
dictatorship, and create meaningful incentives for both the 
regime and the opposition to negotiate a political end to the 
Syrian conflict.
    Thank you, and I look forward to your questions.
    Mr. DeSantis. Thank you.
    [The prepared statement of Mr. Heydemann follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. DeSantis. The Chair will recognize himself for 5 
minutes. Let me start. I think that, and I think the witnesses 
enumerated this pretty well, obviously we have the Iraqi forces 
and we have had mixed results with them and they have had their 
problems. You have the Syrian opposition, which has some very 
unsavory elements, and there is obviously a range in their 
capability. But the one group that I think most of us here in 
the committee and in the Congress recognize are pretty strongly 
pro-American are the Kurdish Peshmerga. And, Ambassador Abrams, 
I concur with your recommendation.
    What we are hearing, though, the frustration is we claim we 
are going to send them these weapons and they have got to get 
everything through Baghdad. We asked Secretary Kerry when he 
was here, look, we need to get them the weapons, we can't be 
going through this. And he said, well, that is on you guys, we 
are just following the law, we are not allowed to send weapons 
directly. So is that your understanding? And, I mean, don't you 
think it would be better for us to just send the stuff directly 
to them so we can expedite this?
    Mr. Abrams. I think it would be better. That way we would 
know it is getting through. We know now that it is not getting 
through and that they are fighting with basically rifles and 
machine guns, nothing better than that, no helicopters, for 
example, which would be so useful to them. As to the legal 
aspect of this, I would bow to Ambassador Ford, who no doubt 
have to handle this part.
    Mr. DeSantis. Ambassador, do we need to act in Congress? I 
mean, Secretary Kerry, I believe, said his hands were tied and 
he said, hey, that is on you guys, you guys need to change the 
law. That is interesting. That line of reasoning doesn't seem 
to apply to immigration. But nevertheless, go ahead.
    Mr. Ford. I can't speak to what American law might be 
applicable, Congressman DeSantis. I can only say that on the 
Iraq side, the Iraqi constitution, which Kurds ratified as well 
back in 2005, says that the central government is responsible 
for defense. And so I think that is one of the reasons the 
United States has gone through that. There should be a way to 
negotiate protocol, however, between the Kurds and the central 
government in Baghdad to expedite things. I mean, frankly, Iraq 
is living in extraordinary times, and we would expect their 
political leaders to rise to the occasion.
    Mr. DeSantis. Now, you had mentioned the primary defense of 
Baghdad is really these Shiite militia groups. And I know you 
have spent a lot of time in Iraq. I was in Iraq 2007 and 2008, 
and during that time U.S. forces were sustaining a lot of 
casualties from Iranian-backed Shiite militia groups, EFP 
attacks, very deadly. Are these basically the same groups as 
those groups that were attacking U.S. servicemembers?
    Mr. Ford. They are indeed. They include Asa-ib Ahl al-Haq, 
which was responsible for numerous attacks against American 
soldiers. During your time there, Congressman, you might 
remember the attack in Hilla that killed five U.S. service men. 
That is Asa-ib Ahl al-Haq. Kata-ib Hezbollah, which is another 
one that we confronted, and the Badr Corps, which although I am 
not aware that they ever attacked American service men, they 
did kidnap me in 2003, so they have a special place in my 
heart.
    And in all of these instances, Congressman, the Iranian 
Revolutionary Guard Corps, Quds Force, is providing a great 
deal of material assistance, command and control. It is amazing 
how they don't hide this, the commander, General Soleimani, is 
regularly photographed on the front lines.
    Mr. DeSantis. That was going to be my next question, and I 
appreciate that.
    Dr. Kagan, and I acknowledge and I mentioned in my opening 
statement the President wrote a letter to the Ayatollah in 
Iran. The Wall Street Journal reported that was to show that 
there is some common interest to fight ISIS with Iran and the 
United States. I made my feelings, no, I don't think we have 
common interests. I think that that would make the situation 
worse. Do you agree that thinking that Iran would be an ally 
against terrorism would be a bad policy?
    Ms. Kagan. The Iranians are enemies of the United States 
and have based their regime on an ideology of opposition to 
America. They do not share our interests and we do not share 
theirs. So although we may have a minor interest that in narrow 
circumstances is similar, namely that neither of us likes the 
Islamic State and both see it as a danger, we do not have the 
same end states in mind for Iraq, for Syria, for the region, or 
for the world.
    Mr. DeSantis. Thank you for that. And, yeah, the thing is 
we will sometimes hear, well, Iran, they are Shi'a, they oppose 
Sunni terrorism, and that is not even really true. I do know 
that they are butting heads with ISIS. But Iran, they funded 
al-Qaeda operations, they funded of course Hamas. They are one 
of Hamas's biggest backer, which is a Sunni terrorist group. So 
Iran, I think, does not have a constructive role in this, and I 
think that would be really dangerous to go in that direction.
    My time has expired, and I will recognize the ranking 
member, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Dr. Heydemann, what does a political solution look like for 
Syria? Does it only focus on Assad? How does ISIS' control over 
these large swaths of land fit into that strategy. And is there 
a circumstance--I guess I would throw this open to the panel--
is there a circumstance in which the coalition would actually 
act against Assad or would the United States then lose regional 
support if we took that approach?
    Mr. Heydemann. Thank you. Thank you, Congressman.
    One of the reasons that I focus on the Geneva Protocol as a 
starting point, as a framework for a transition, is because it 
remains the only framework which has the agreement of the 
United States, Russia, and a number of other critical 
stakeholders in this conflict, but also because it sets out a 
process for determining what a negotiated transition would look 
like that I believe offers the best possibility for achieving 
some form of power sharing, an outcome in which it seems very 
difficult to imagine that the existing leadership of the Assad 
regime, including President Assad himself, would play a role, 
but one that I believe holds out some promise for addressing 
some of the deep and intractable conflicts that sustain the 
civil war.
    So the first step, it seems to me, in defining what a 
political settlement would look like would be to create a 
negotiating context that would permit the parties to the 
conflict to move forward in achieving the goals established by 
the Geneva Protocol, which include creating an interim 
governing body on the basis of mutual consent of both the 
regime and the opposition, which would exercise full executive 
authority, and which could initiate the next steps in a 
political process that would achieve that broader political 
solution.
    So I continue to see the Geneva Protocol as a useful tool 
in moving toward a political solution of the conflict.
    Mr. Deutch. I had said earlier that as we look at this and 
as we look back, it was the expectation that the Assad 
government, the regime was going to fall, it was only a matter 
of when. We heard that not just from our administration, but 
from leaders in the region. That has not happened.
    Ambassador Ford, what should we be saying about our 
expectations for Assad? Is it possible to wage the battle we 
are waging now against ISIS without making clear what our 
ultimate intentions are with respect to Assad and how we are 
going to accomplish them?
    Ambassador Abrams, you, as well.
    Mr. Ford. I don't see how it is going to be possible to 
contain, much less roll back the Islamic State on the western 
side of this conflict in Syria as long as Bashar al-Assad is 
running Syria in a way where people can't see an end to it.
    It would be great to get to a political negotiation such as 
Dr. Heydemann was talking about. We tried that in Geneva, and, 
frankly, we got nowhere. And the opposition in Geneva, I have 
to mention this, Congressman Deutch, put a very reasonable 
proposal on the table in the negotiating opening. The U.N. was 
very pleased with it. The Assad regime completely refused to 
discuss it. And so, in order to get to a political process, 
there is just going to have to be more pressure on the Assad 
regime.
    Now, in the 9 months since Geneva the regime has suffered 
very heavy casualties, and there is more unhappiness among 
supporters of the Assad regime than there was at the start of 
2014. It is very noticeable. There are demonstrations. There 
are a lot of complaints. The regime has responded with arrests.
    So if there is a way to reach out to elements of that 
regime, to its supporters, and say, look, it doesn't have to be 
a choice between Assad and jihadi crazies for Syria, there is a 
third way, then I can imagine moving forward along the lines of 
Dr. Heydemann's. But in order to do that, you got to have a 
little more pressure on the regime, too, and we got to get the 
Russians and the Iranians on board. They also pay attention to 
the situation on the ground. I go back to what I said, more 
pressure on the ground.
    Mr. Deutch. Ambassador Abrams.
    Mr. Abrams. Well, I agree with that. I think you are not 
going to be able to achieve that at a negotiating table a 
result that is independent of the actual facts on the ground. 
The facts on the ground are what we need to change first. This 
is a 75 percent Sunni country. It is impossible to think of a 
role for Assad after he has spent 3 years slaughtering Sunnis.
    Mr. Deutch. Thank you.
    Mr. DeSantis. The gentleman's time has expired.
    The Chair now recognizes my friend from Florida, Ted Yoho, 
for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman.
    Thank you, panel, for being here. And what I am looking 
from you, I have got 5 minutes, is a new dynamic, I mean, it 
won't serve us to go back other than to remember how we got 
here, to where we go from this point because I have heard all 
you guys, and I think you guys are very adroit at what you say, 
I think your experience speaks highly for itself, but it is 
where we go from here and the policies that you can give us 
information on how we can bring up legislation to move this 
situation forward without American boots on the ground.
    As you well know, we have had 1.2 million people in 
Afghanistan and Iraq that are coming back. It is estimated that 
600,000 to 800,000 of our troops are going to have some form of 
PTSD. This is not a road I am willing to go down, but yet this 
needs to come to an end. Because what I see is an amorphous 
region with no leader, with no stable government, and we are 
fighting an ideological member unit, ISIS, that has no country, 
they have no defined leader, per se, as a normal government 
would that we would traditionally fight, yet they are the best 
armed terrorist organization that the world has ever seen. And 
the best armed, and it scares me to think that the arms they 
are using are the arms we had in Iraq.
    And so, I would like to hear real quickly from each of you. 
And, Ambassador Abrams, you laid out fairly well what I was 
looking for.
    So, Ambassador Ford, if we could start with you. 
Legislation that you would say if you would do this, this would 
help bring stability to that area.
    Mr. Ford. There is no easy way to get stability back to 
that area. I want to be very clear.
    Mr. Yoho. We have to have a starting point, though, and if 
it is arming the Kurds here, so be it.
    Mr. Ford. Here are three things that I think the Congress 
could usefully do. Number one, move forward on an authorization 
to use military force. It sends a very good message to the 
Russians. It sends a really good message to the Iranians. And, 
frankly, it makes Bashar al-Assad nervous. We are not going to 
be able to get to the political discussion that Dr. Heydemann 
was talking about, the negotiation, if Bashar al-Assad doesn't 
feel nervous.
    So a solid vote in favor of an authorization to use 
military force would be very helpful. It sends the right 
signals.
    Second thing, I believe you have coming up again a 
reauthorization for the use of American funding to train 
elements, vetted elements of the moderate Syrian opposition. 
This job is becoming harder because of things that we have done 
over the last 2 months. That said, that said, it needs to be 
approved again because it is taking a long time to stand up, 
but it isn't going to get any easier in 4 or 5 or 6 months. 
They need to keep moving it forward. I would like them to go 
faster, but as I said, you can't have the perfect be the enemy 
of the good.
    Third thing, insist, demand that there be accountability 
among the Iraqi security forces and these Shi'a militia in 
return for receiving American assistance. We cannot have a 
situation where the Shi'a militia, Dr. Kagan explained it as 
well, where they are literally driving the Sunnis into the arms 
of the Islamic State. We will not win on the eastern front if 
we do not have those Iraqi Sunnis on board.
    Mr. Yoho. All right. I am going to skip over you, 
Ambassador Abrams, and go to Dr. Kagan.
    Ms. Kagan. I agree with all of Ambassador Ford's 
recommendations, and in addition I would say that there are two 
more things that Congress can do to show our strength, not 
necessarily to use our force. One is that you need to take on 
sequester and ensure that we have the defense of the United 
States and the ability to project power in a way that our 
allies and our enemies can recognize not only now, but over 
time, and ensure that we have the greatest military in the 
world still to come.
    And secondly, I do encourage you to consider the needs of 
our intelligence services. And although those intelligence 
services are under strain both from the pressures that have 
resulted from the Snowden leaks and also from sequestration, we 
have a global jihadist threat that is coming to the west, and 
you need to resource our Intelligence Community such that they 
have the wherewithal to identify such threats well ahead of 
time and inform the executive about how it should act.
    Mr. Yoho. And, unfortunately, I am out of time.
    Dr. Heydemann, if I could get your recommendations and 
build upon those other ones, I would greatly appreciate it, and 
we will make sure we institute those.
    Mr. Heydemann. Very quickly, two very quick points.
    I think it is entirely plausible to use a conversation 
about authorization and appropriation of a train-and-equip 
program to remove the artificial restriction on that program as 
focused solely on ISIS and not on changing conflict dynamics on 
the ground more broadly and expanding the program.
    Second, as I mentioned in my comments, the regime is fully 
persuaded of the lack of will of the U.S. to engage more 
deeply, and it seems to me that, as Ambassador Ford said, an 
authorization for the use of military force that explicitly 
included the possibility of a no-fly zone and buffer zone would 
send an extraordinarily powerful signal to the Assad regime.
    Mr. Yoho. Thank you, sir.
    I yield back, and I apologize to the members for going 
over. Thank you.
    Mr. DeSantis. Gentleman's time has expired.
    And the Chair now recognizes the gentleman from New York, 
Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman.
    I just want to try to provide some context to a situation 
that I think is sometimes presented as black and white, and 
there is a lot of gray area. And it is particularly true in 
Syria where you have the Free Syrian Army, which is made up of 
some 1,500 militias, which are very organic. They are 
sectarian. They are mostly, at least, the most effective 
seemingly Islamic extremists and al-Qaeda affiliates. And we 
often talk about funding and arming the moderate component of 
that element, which really makes up a very, very small 
percentage of the larger group.
    And I am also looking at America spent $25 billion building 
up an Iraqi Army that consists of 283,000 fighters, active; 
another 528,000 reserves. We talked about in Kurdistan the 
Peshmerga, which have demonstrated to be reliable allies to the 
United States. Kurdistan is pretty successful within the 
context of the Middle East. It is pluralistic. Minority rights 
are respected. They have been again proven very, very 
effective.
    The last estimates I saw of ISIS in terms of their numbers 
was from the Central Intelligence Agency, and there were 41,000 
estimated ISIS fighters. And it seems to me if you have you an 
Iraqi Army of well over 280,000, you have got the Peshmerga 
between 250,000 and 350,000, it begs the question, why is it 
that we are not more effective in degrading and destroying ISIS 
immediately? And I think it comes back to the issue that we 
kind of gloss over, and that is the political issue. And Nouri 
al-Maliki and his successor have not proven to be inclusive in 
Iraq.
    So the first test of this $25 billion Army that we helped 
create in Iraq, they ran. They ran. There are political 
problems now between Iraq and Kurdistan which keeps Iraq from 
allowing an effective supply of the Peshmerga up in northern 
Iraq.
    So I think the conclusion is that when thereis no political 
center in Iraq or in Syria, there are only sides. And I think 
we are sometimes led to believe that there is a good side and a 
bad side. Well, there is often--or there is--a bad side and 
arguably even a worse side in both of those places, and unless 
and until you have some kind of recognition of minority rights 
and inclusion of various groups there, you are never going to 
have a political situation that is stable which would allow for 
those countries to evolve.
    So what is it that we can do for them that essentially they 
are responsible for exclusively to create a level of stability 
that would allow us to fight back effectively or assist them in 
fighting back effectively against groups like ISIS?
    Sorry. A long way to get to a question, but go ahead.
    Mr. Ford. Two things come immediately to mind, Congressman 
Higgins. The first is there are terrible problems of corruption 
in the Iraqi Army, developed even before Nouri al-Maliki. It 
was back even in 2005. The very first defense minister in the 
new Iraqi interim government stole over $1 billion. You 
mentioned $25 billion. There is $1 billion right there; $1.2 
billion, according to the inspector general's office. So there 
was a problem of leadership and there was a problem of 
corruption, and I think we absolutely have to hold them more 
accountable.
    That often means that we say we can't work with you on this 
issue until you fix these seven, eight, nine issues over there. 
It means, frankly, understanding that if they won't fix 
themselves, in some cases, there is nothing we can do, and we 
have to be honest about that.
    Second thing, which I should have mentioned with 
Congressman Yoho's question, in order to do these things, to 
insist on accountability, we have to step up our own 
discussions, probably very blunt discussions behind closed 
doors, but that requires that we be able to get out and about. 
And we have a large diplomatic team in Iraq. We have a large 
diplomatic team in places like Turkey and Jordan where Syrian 
opposition people are located. They have to be able to get out 
and move around.
    And I am going to be very honest with you. In the post-
Benghazi atmosphere, it is much harder for professional 
diplomats to get out and do the kind of discussions, blunt 
talk, that I was just talking about, and that is going to also 
have to be changed.
    Mr. DeSantis. The gentleman's time has expired.
    Chair now recognizes the gentlemen from Illinois, Mr. 
Kinzinger, for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Thank you all for being here.
    When we pulled out of Iraq in 2011, did any of you all not 
seeing this coming? I mean, I ask that, I guess, rhetorically. 
I mean, I am no, like, crystal ball owner, but I knew this was 
going to happen. Right? I knew that if we didn't leave a 
residual force, this was going to fall apart.
    By the way, it is a great lesson for Afghanistan as we look 
forward too, the importance of a residual force there.
    To the folks that talk about how basically we don't want to 
engage in this fight, we don't get to pick the world we live 
in. Right? I mean, I would wish a different world if I could, I 
would wish a different situation if I could. But the United 
States can only be defeated in a case like this by our will. We 
are never going to be defeated militarily. I think our will was 
defeated in 2011 with the pullout of Iraq.
    I think when with you put a red line down to say no U.S. 
Boots on the ground, you are in essence saying that, okay, the 
existence of ISIS is unacceptable unless it takes American 
boots to destroy ISIS, in which case American boots are worse, 
the existence of American boots on the ground are worse than 
the presence of ISIS.
    So, I mean, I think we have to never put on the table what 
we are not willing to do. It sends a very bad message.
    I just got back from Iraq about 5 or 6 weeks ago with this 
committee, and I have got to tell you, I went into Turkey, met 
with leadership of the Free Syrian Army. I was heartbroken by 
how they have continually been let down by the government. 
Promised no-fly zones of protection, promised arming and 
equipping, training and equipping, and over 3 years waiting for 
this kind of manna to come down to help them in their fight, 
and instead they continue to fight a two-front war against a 
brutal Assad.
    Which, by the way, Bashar al-Assad, if I hear it again I am 
going to pull my hair out, is no friend of the United States, 
no friend to Christianity, no friend to the West. He is a 
brutal dictator that slaughters his own people and created an 
environment for ISIS to explode and exist today. Period. No 
Christ I follow, no Christ I look up to would call a guy like 
Bashar al-Assad a friend. He is a murderer and he is a brutal 
dictator, and he needs deposed, and hopefully peacefully, but 
he needs to be gone, and that needs to be the focus of the 
mission of the United States of America. This is going to take 
a long time, but if you are going to kill the incubator of 
ISIS, you are going to destroy the incubator of ISIS, it starts 
with the regime of Bashar al-Assad.
    The other thing I want to say about that, so 1 year ago or 
so when we were debating the red line in Syria, I took my fair 
share of hits from people calling my office because I was very 
aggressive about the need to follow through on the strike in 
Syria. I also remember that as that discussion was happening, 
all over the world there were discussions about an off-ramp for 
Bashar al-Assad, maybe we can get him $\1/2\ billion and send 
him to some other country and let him live the rest of his life 
in peace.
    After we failed to enforce the red line, there has not been 
one serious discussion about Bashar al-Assad being deposed from 
power. That is what happens when you put something on the table 
and you don't follow through with it.
    When I went into Erbil as part of this trip, I saw the 
tragedy of a girl who has her two younger siblings with her, 
lost her parents, one of the kids is 5 years old with cerebral 
palsy that can't even be fed, he looks like a skeleton, because 
everybody was caught off guard by the intensity of this.
    This is not a problem that is going to go away by us 
exercising restraint. I don't think we need large amounts of 
boots on the ground, but I think when you take them off the 
table, I think you just show the enemy what you are not willing 
to do and you encourage them.
    I am encouraged by the air strikes. I think it is important 
to do. But, Dr. Kagan, let me ask you. How does the amount of 
air strikes and the intensity of air strikes we have done 
compare to prior engagements, for instance, the opening of Iraq 
in 2003?
    Ms. Kagan. The numbers of air strikes that we are 
conducting now do not, in my opinion as a military historian, 
constitute an air campaign of the size and scale that we saw, 
for example, at the beginning of Operation Enduring Freedom in 
Afghanistan. We are talking about an order, two orders of 
magnitude difference.
    Mr. Kinzinger. Yeah. In a country the size of California, 
by the way, basically.
    And so you think about that. I fly ISR. I still fly in the 
Air Guard, and I can tell you, ISR, there is all kinds of ways 
to acquire your target. One of them is by simply looking at it. 
That is what we have to rely on basically now, because we don't 
have assets on the ground that can target things.
    So I can tell you 100 times I have looked at trucks with 
people in the back of them that look like fighting men, and we 
are not sure if they are fighting men or not. And so what 
happens in an air campaign like against ISIS today is they 
probably don't strike that target, because you don't have other 
verification, because the last thing you want to do is to 
strike a truck where it is a family going off to a family 
reunion.
    And so, look, I am supportive of the President doing 
something in Iraq. He needs to step it up. I think we have to 
look at giving heavy weapons to the Peshmerga who are fighting 
our own heavy weapons that were stolen from ISIS. And we need 
to call this what it is. The President has got to talk to the 
American people about what ISIS is, the existence of them, how 
unacceptable it is, and how he will refuse to let them exist in 
the future.
    With that, I thank you. I spent most of my time talking, 
but I yield back.
    Mr. DeSantis. Gentleman yields back.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Schneider, for 5 minutes.
    Mr. Schneider. Thank you, Mr. Chairman.
    And, again, thank you to the witnesses.
    Dr. Kagan, in your written testimony you talked about that 
we must raise our gaze from the tactics of fighting ISIS, and 
then talked about a fight that is not going to last years but 
run across generations. And I would like to spend my limited 
time here talking a little bit about that. And I think we have 
to look back, because what we see here is as much as anything a 
conflict that runs across thousands of years. You have the 
split between the Persians and the Arabs, the Sunni-Shi'a 
split. Also I think we are seeing the collapse of the borders 
from 1916, the Sykes-Picot borders, and the associated state 
structures with that in Iraq and Syria for sure, and then as 
you mentioned, the rise of global jihad.
    In all of those, if I think through and listen to what you 
guys are saying, we have a number of objectives. To limit 
Iranian influence. To preserve--and I am saying this as a 
statement, but it is a question--preserve the nation-states 
that were created in 1916, but to do it in a way that does not 
include--certainly does not include Assad. To find a path 
within those states for pluralism that bridges the gap between 
the Sunnis and the Shi'as. And within all of that to defeat 
ISIS and global jihadism in general.
    What does that strategy look like across generations as we 
raise our gaze? And I will open that to the entire panel.
    Ms. Kagan. Thank you. It is a wonderful question.
    I actually want to go back and challenge just one thing in 
the premise of the question, which is the notion that the kind 
of conflict we are seeing right now in Iraq and Syria is the 
kind of conflict that is thousands of years old. The point is 
that there are actually rather unique and special conditions in 
the history of these policies that is generating this tension 
now--a failure of states, a failure of leaders, and a 
deliberate radicalization of the population.
    And the reason I stress that is because we can think that 
engaging in diminishing a regional sectarian war is impossible 
if we really think about it as a war that has lasted 1,000 
years, but if we actually see it as a product of states' 
geopolitics and ideology of a moment, I think we have more room 
to work forward.
    So what do we do? Well, the first thing I would say is we 
need to make sure that generations more fighters are not 
created right now. What we are seeing in Syria reminds me of 
what we saw in Afghanistan in the 1980s and 1990s. And so 
protraction of this conflict is not in the interest of the 
United States at all, because it will create not only a cadre 
of seasoned fighters on all sides, pro-Assad regime, pro-
Iranian, pro-ISIS, pro-al-Qaeda. It will not only create those 
seasoned fighters and give them their combat patches so that 
they can fight in the future, it will actually create, as it 
has, refugees who are extraordinarily vulnerable to 
radicalization and a degree of success for global jihadis that 
will attract people who are vulnerable.
    Mr. Schneider. I am sorry to take back time which is so 
limited.
    Ambassador Ford, your perspective having been on the ground 
and spent so much time with the people throughout this 
territory?
    Mr. Ford. Congressman, there is really one root cause of 
what is happening in the Islamic State and al-Nusra. Across the 
Levant and into Iraq there is a Sunni Arab population that 
feels it is under attack, feels that it has been tread upon. In 
Syria it has suffered probably almost 150,000 killed. In Iraq 
that population, which is a minority, ruled the country, but 
since rule was wrested away by the American forces in 2003, it 
feels there it has also been tread upon, treated unfairly, et 
cetera.
    You can't fix this problem until you deal with some of 
those grievances, and you deal with some of those grievances by 
figuring out ways to have power sharing in central governments, 
whatever the borders are, by having large measures of 
decentralization, which is going to be new in that region. They 
have not had that before, but that is clearly what is going to 
be needed, it has worked with the Kurds and it will work with 
the Sunni Arabs in Iraq, I think. And you are going to need 
help from the regional states, whether that be border control 
so that jihadis don't slip over the border and go fight, 
whether that be stopping money flows from private citizens, or 
whether that be agreeing on a broad framework of what the 
states should look like in order to get to that political deal.
    Mr. Schneider. Thank you. I am out of time. I yield back.
    Mr. DeSantis. Gentleman's time has expired.
    The Chair now recognizes the incoming junior Senator from 
the great State of Arkansas, Mr. Cotton.
    Mr. Cotton. Thank you.
    Dr. Kagan, how many troops did General Lloyd Austin 
recommend that the President retain in Iraq in 2011?
    Ms. Kagan. Mr. Cotton, I do not remember the exact number, 
but I have heard in media that we were talking about 10,000 to 
20,000 troops.
    Mr. Cotton. Okay. And the President didn't take that 
action. He withdrew all troops in 2011.
    Ms. Kagan. Correct.
    Mr. Cotton. Based on your best understanding, whether from 
briefings, understanding this is an unclassified hearing, and 
also your professional military judgment, had the President 
accepted that recommendation in 2011, how many troops do you 
think would be in Iraq today?
    Ms. Kagan. I think that THE residual force that we had left 
in Iraq would be in Iraq, but I think that Iraq would be a 
different place in 2014 if we had, as the United States, left 
troops behind in 2011, because the presence of Americans at 
that time would have been an important check on some of the 
abuses of the Iraqi Government that other members have spoken 
of, and would be an important deterrent both to the Islamic 
State and to Iranian militias.
    Mr. Cotton. So had we retained that residual force of 
reportedly 10,000 to 20,000, it would have provided a check on 
the Maliki government sectarianism, might have kept the Sunnis 
and the Kurds more tightly in the fold, contributed to the 
professional development of the Iraqi Army, stopped Iranian 
intermeddling, certainly stopped the Islamic State. Iraq would 
be in a better place and perhaps we would have many fewer 
troops there than 10,000 to 20,000 today?
    Ms. Kagan. I agree that leaving a residual force behind in 
early phases of turning over not the sovereignty of a 
government but the security of a government and its people to a 
nation can actually be an important way of diminishing the 
risks of future conflicts and the risks of having to redeploy 
American forces to suppress that greater level of conflict in 
the future.
    Mr. Cotton. And with the President's latest announcement 
that he would authorize the deployment of another 1,500 troops 
to Iraq, if I have done the rough math correctly, I think we 
are now somewhere between 3,000 and 4,000 troops going to Iraq?
    Ms. Kagan. Correct.
    Mr. Cotton. Does this seem like a slow motion tacit 
admission by the President that he made a mistake in 2011 in 
not accepting General Austin's judgment, in your opinion?
    Ms. Kagan. I do not think that the White House in general 
has fully recognized the error of its judgment in 2011, as a 
citizen observing.
    Mr. Cotton. Thank you.
    The title of this hearing is ``Next Steps on U.S. Foreign 
Policy.'' Having reviewed the history of foreign policy, I 
think it is best to hear next steps, and we are of course the 
Congress, and we are entrusted with some important 
responsibilities on foreign policy, but the executive is 
obviously entrusted with even more. But looking ahead to the 
following weeks, but maybe in particular 6 or 7 weeks from now, 
could you give us your thoughts on what the next best steps are 
for us as a legislature in our system of government on Syria 
and Iraq, recognizing that the President under our Constitution 
has a somewhat free hand.
    Start with Ambassador Ford to get his advice and counsel, 
and then maybe move down the panel for as long as we have.
    Mr. Ford. Congressman, I think looking ahead, strong 
authorization to use military force sends the right messages to 
all sides. Second, reapproving the money to work with the 
vetted opposition in Syria, the moderate opposition. And then 
third, demanding accountability from the Iraqis in return for 
the assistance we provide. The corruption problems, the 
leadership problems that have been endemic, I think the Prime 
Minister of Iraq, Abadi, has made some changes among generals, 
about two dozen. It is great, frankly a little overdue, but it 
is good. But that won't be the end of it. There are a lot of 
corrupt junior officers, shall I say, or less senior. So those 
three things to start.
    Mr. Cotton. Ambassador Abrams.
    Mr. Abrams. I would just add it is important for the 
President, in the aftermath of the President's letter to the 
Ayatollah Khamenei, for the U.S. Government to clarify that we 
are not partners with Assad and that we maintain the policy 
that Assad must go.
    Mr. Cotton. My time has expired, a constraint under which I 
soon will not chafe as the junior Senator from Arkansas, I 
suppose.
    Mr. DeSantis. Well, actually, as a parting gift, if you 
would like another 60 seconds to show just how appreciative I 
am that you won by almost 20 points in what was supposed to be 
a toss-up race.
    Mr. Cotton. I will just let Dr. Kagan and Dr. Heydemann 
answer the question that I posed.
    Ms. Kagan. I agree with Ambassador Ford, and in addition I 
recommend that the United States show its strength in the world 
by ending the sequester that is limiting our ability to project 
force now and in the future, and that we strengthen the 
capabilities and authorizations for our intelligence services 
so that we can be prepared for this global threat.
    Mr. Heydemann. Thank you.
    I have been particularly concerned that the current policy 
seems to believe that we can address the challenge of ISIS 
without respond to the Syria conflict and respond to the Syria 
conflict without addressing the challenge of ISIS. These two 
problems cannot be separated. There needs to be an integrated 
strategy that encompasses both of these concerns. And I would 
encourage Congress to use every possible opportunity to move 
the administration toward a policy framework in which the 
connections between the two are very explicit and built into 
the tactics and strategy that the White House advances.
    Mr. Cotton. Thank you all.
    Mr. DeSantis. The gentleman's time has expired.
    Chair now recognizes the gentleman from Rhode Island for 5 
minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you to our witnesses for this important 
testimony. And I particularly thank you, Ambassador Ford, for 
your extraordinary service to our country.
    I think there is no question that we all recognize the very 
serious threat of ISIL and the responsibility of the United 
States to have a coordinated strategic unified approach to 
this. I think this hearing is particularly important as we are 
about to consider a $5.6 billion request from the President to 
fund additional military action in Iraq and Syria, and there 
are many of us who have been calling for a full debate and a 
war authorization because Congress plays an important role in 
this, and I was pleased to hear everyone say that that would be 
useful in the context of whatis happening.
    First I want to just ask you, Ambassador Ford, you have 
said a couple of times that as one of the three suggestions 
demand accountability among the Iraqi security forces. What 
does that look like? How would we effectively ensure 
accountability? Because I think everyone here would agree with 
that, but we are all very familiar with the pervasive 
corruption in the Iraqi security forces. What kinds of things, 
what sorts of measures would you recommend that we could press 
for that would bring the kind of accountability that would make 
them a better partner?
    Mr. Ford. The reason the Iraqi Army fell apart in Mosul and 
the blitzkrieg went all the way down to the outskirts of 
Baghdad is because the Iraqi Army had bad leadership and it was 
corrupt. It is a lesson to us that if they don't fix this 
problem, no matter how much money, how much equipment we give 
them, it is not going to work.
    So what that looks like to me is that as we send advisors 
in, when they identify this commander over here, that commander 
over there is a problem, we are not going to work with that 
unit at all until he is fixed, until he is changed. It may 
require, for example, even general flag officers who are 
encouraging lower level officers to say that their command 
staff needs salaries for 1,000 soldiers when they know 
perfectly well there are only 300 on duty and they are 
pocketing 700 soldiers' salaries for their own use, maybe that 
general has to go too.
    But you have to be able to say to them: We can't work with 
you like this. And I have to be honest, I have not seen us do 
that very often in Iraq, frankly. Congresswoman Ros-Lehtinen 
was talking about what Brett McGurk, Deputy Assistant Secretary 
Brett McGurk had said. We knew a lot of these problems were in 
the Iraqi Army before. This is not a surprise to us. But I 
don't know that we were insisting that we can't work with them 
if they don't make changes.
    Mr. Cicilline. And do you, Ambassador Ford, Dr. Kagan, see 
any evidence that the current efforts underway both with air 
strikes and other efforts on the ground are having any impact 
on the Assad regime's kind of recalculation or reassessment? 
Are these efforts in any way causing the regime to contemplate 
a different path forward? Because everyone speaks about the 
necessity of some political solution, which, frankly, in the 
context of the facts on the ground, it is hard to imagine these 
power-sharing discussions and other things. So I am just 
wondering whether we are seeing any evidence at all that that 
is making a difference.
    Mr. Ford. In some cases, Congressman,it has been negative 
difference. Let me give you an example. The Islamic State had 
elements of the Assad regime surrounded in a provincial capital 
in eastern Syria, a place called Deir ez-Zor, been under siege 
for months, and there was an attack lining up that would have 
cost the Assad regime a lot of soldiers, a lot of equipment. 
American air strikes forced the Islamic State to withdraw. The 
regime was able to reopen supply lines. And actually what the 
regime did was shift air aspects to go hit moderates up in 
northern Syria. You might remember there was reporting in the 
American media about how the regime intensified air operations 
against our friends because of the air strikes that we were 
doing.
    So I do think that a powerful authorization to use military 
force will compel Assad to wonder if the Americans over time 
will not adjust their tactics to include his, frankly, slowly 
degrading air force.
    Mr. Cicilline. And could I just ask--I too won my election 
by 20 points--if I could have 1 more minute.
    With respect to this sort of choice, and it is not 
necessarily a choice, but as we think about this effort to 
continue to train and arm the Syrian opposition versus--or in 
addition to--or sort of allocating resources to arming the 
Peshmerga, what is your assessment, Dr. Kagan, Ambassador Ford, 
Doctor, in terms of this likely success of this arm-and-train 
effort of the Syrian opposition? And if you had unlimited 
resources, where would you put those resources as between those 
two choices?
    Ms. Kagan. The effort to arm and train the Syrian moderate 
opposition is essential, but we, the United States, have 
asymmetric capabilities that we need to bring to bear on the 
fight in Syria in order for that moderate opposition to survive 
long enough to be armed and trained and make a meaningful 
difference on the battlefield. Namely, we do need to provide 
them with close air support, and we do need to reconsider 
targeting the Assad regime, and in particular his asymmetric 
capability, which comes in his use of air power against those 
moderates. We need to have those things together in Syria in 
order to create conditions for success.
    Mr. Heydemann. I endorse everything that Dr. Kagan said, 
but would add that we also need to invest adequately in 
creating the appropriate infrastructure to ensure that the 
forces that we train and equip can perform effectively and that 
in the areas in which they are operational we will not simply 
be clearing ISIS from communities that will then see the return 
of alternative extremist groups once that task has been 
accomplished.
    That means building the appropriate command-and-control 
structures and political accountability structures led by 
Syrians that will ensure the effectiveness of the train-and-
equip mission over time. And I am concerned that significant 
questions about what that infrastructure will look like have 
not yet been adequately answered.
    Mr. Cicilline. I thank you, Mr. Chairman, for the 
indulgence. Thank you. Yield back.
    Mr. DeSantis. Gentleman's time has expired.
    Just real quickly, Ambassador Ford, you had mentioned that 
an authorization of force would send a message to Iran. A lot 
of us are concerned about these nuclear negotiations. The 
President has said--well, it has been reported--that they don't 
want to even go through Congress. They want to keep it away 
from Congress, which tells me that it may not be a deal that 
would merit approval from Congress or the American people. And 
so I am certainly losing patience with that.
    Do you think a vote against a bad nuclear deal or a vote to 
reimpose tough sanctions would also be a good signal to send to 
Iran vis-aa-vis our fight in Syria and Iraq?
    Mr. Ford. The most important thing, Congressman, with 
respect to Iraq and to Syria is to get the Iranians to adjust 
their behavior. They can't just use Shi'a militia to fix the 
Islamic State problem on the eastern front in Iraq. The Shi'a 
militia will drive the Sunni Arabs right into the hands further 
of the Islamic State. And in Syria, the Iranians have got to 
accept that Bashar is going to go and there is going to be some 
other kind of a government.
    So I don't know how the nuclear negotiations are going to 
directly affect that, but what I do think is that we need to 
find a way to get the Iranians to understand that there may be 
other ways to fix the Islamic State problem without doing it 
the way they are doing it, which is actually making the problem 
infinitely worse.
    To be frank, Assad and the Iranians are helping create the 
Islamic State problem. I talked about this aggrieved Sunni 
community. The Iranians are the biggest single problem behind 
that.
    Mr. DeSantis. No, absolutely. And, look, just from my time, 
I was in the Al Anbar province, and the more Iran is involved, 
I mean, that is a total repellant. I mean, they would much 
prefer ISIS than an Iranian-backed government. And so it would 
make the whole enterprise, I think, go up in smoke.
    Mr. Ford. You understand because you were in Anbar. This is 
the accountability aspect that I am talking about.
    Mr. DeSantis. Absolutely.
    Well, I just wanted to thank the witnesses. We really 
appreciated your testimony, taking the time here to answer our 
questions. I think all your thoughts were very considered and I 
know it will help the committee members very much.
    And so with that, this hearing stands adjourned.
    [Whereupon, at 5 o'clock p.m., the subcommittee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
